  March 18, 2003




Financial Management

DoD Payroll Withholding
Data for FY 2002
(D-2003-060)




      Office of the Inspector General
                   of the
          Department of Defense
                                    Constitution of
                                   the United States

    A Regular Statement and Account of the Receipts and Expenditures of all public
    Money shall be published from time to time.
                                                               Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Website of the Inspector General
  of the Department of Defense at www.dodig.osd.mil/audit/reports or contact the
  Secondary Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

APO           Agency Payroll Office
CSRS          Civil Service Retirement System
DFAS          Defense Finance and Accounting Service
FEGLI         Federal Employee’s Group Life Insurance
FERS          Federal Employees Retirement System
IG DoD        Inspector General of the Department of Defense
OPF           Official Personnel File
OPM           Office of Personnel Management
TSP           Thrift Savings Plan
RITS          Retirement Insurance Transfer System
DISTRIBUTION:

OFFICE OF PERSONNEL MANAGEMENT
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
   AND COMPTROLLER)
DIRECTOR, DEFENSE COMMISSARY AGENCY
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY
DIRECTOR, DEFENSE LOGISTICS AGENCY
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
DIRECTOR, CIVILIAN PERSONNEL MANAGEMENT SERVICES
            Office of the Inspector General of the Department of Defense
Report No. D-2003-060                                                     March 18, 2003
   (Project No. D2002FH-0061)

                   DoD Payroll Withholding Data for FY 2002

                                 Executive Summary


Who Should Read This Report and Why? This report is intended for use by the
Inspector General, the Chief Financial Officer, and the Associate Director for Retirement
and Insurance at the Office of Personnel Management. The report discusses the results of
agreed-upon audit procedures developed by the Office of Personnel Management.

Agreed-Upon Procedures. Office of Management and Budget Bulletin No. 01-02,
October 16, 2000, requires all Federal agencies to review their civilian employees’
retirement, health benefits, and life insurance payroll withholdings. The Inspector
General, Chief Financial Officer, and Associate Director for Retirement and Insurance of
the Office of Personnel Management developed specific agreed-upon procedures to
review civilian employees’ withholdings and are therefore responsible for the adequacy
of the agreed-upon procedures. We applied the agreed-upon procedures in accordance
with the standards established by the American Institute of Certified Public Accountants.

Background. Defense Finance and Accounting Service pays about 682,000 employees
with a total gross payroll of about $1.4 billion within a given pay period through 11
payroll offices.

Results. The payroll withholding amounts that the Defense Finance and Accounting
Service reported to the Office of Personnel Management did not exactly match the
supporting detail they provided. This is a repeat issue from prior Inspector General of the
Department of Defense audit reports, and the Defense Finance and Accounting Service is
developing computer storage to resolve the issue. We also noted differences between the
Office of Personnel Management and Defense Finance and Accounting Service SF 2812s
for military deposit cash payments.

Withholding Data Discrepancies. We selected a sample of 280 employees and
compared their payroll withholdings to authorizations in their Official Personnel Files.
This comparison revealed 34 discrepancies (percentages apply to the sample of 280 not to
the whole population) as follows:

        •     3 gross pay discrepancies (1.07 percent),
        •     13 life insurance withholding discrepancies (4.64 percent),
        •     5 health benefits withholding discrepancies (1.79 percent),
        •     9 Thrift Savings Plan discrepancies (3.21 percent),
        •     3 Federal Employees Retirement System withholding discrepancies
              (1.07 percent), and
        •     1 Civil Service Retirement System withholding discrepancy (0.36 percent).
Calculations Required by Agreed-Upon Procedures. We recalculated headcounts, life
insurance, and health benefits for the payroll detail files. The differences between the
totals we recalculated and the Defense Finance and Accounting Service payroll files were
less than the reporting threshold criteria established in the agreed-upon procedures.

Conclusion. We performed the agreed-upon procedures specifically pertaining to
payroll. We were not engaged to and did not perform an audit with the objective of
expressing an opinion on the withholdings and contributions for health benefits, life
insurance, retirement, and on the employee headcount of DoD. Therefore, we are not
expressing an opinion. However, we performed additional procedures based on generally
accepted government auditing standards. In general, the Defense Finance and
Accounting Service and supporting DoD organizations could improve internal controls
over the accuracy of the payroll amounts withheld and remitted to the Office of Personnel
Management. The withholding amounts determined by performing the
agreed-upon procedures differed from the withholding amounts presented in Defense
Finance and Accounting Service reports. The differences were less than the reporting
threshold criteria established in the agreed-upon procedures.

Management Comments and Audit Response. The Defense Finance and Accounting
Service commented that it enacted a new procedure to prepare supplemental SF 2812s for
any unreported military deposit cash payments. Resolution of future unreported military
deposits cash payments will occur through a system change to the Defense Civilian Pay
System. The management comments are partially responsive because they will affect
future payments, but not past payments.

The Office of Personnel Management confirmed that the Defense Finance and
Accounting Service has prepared supplemental SF2812s. However, the supplemental
SF2812s do not correct the discrepancies for military deposit cash payments and service
credit addressed in our draft report. An itemization of the discrepancies in military
deposit cash payments is in Table 1 of this report. The Defense Finance and Accounting
Service confirmed that it implemented the system change to resolve the military deposit
cash payments, which we address in this final report.

In this final report, we recommend that the Defense Finance and Accounting Service
report military deposits and service credits listed in Table 1 of this report to the Office of
Personnel Management. We request that the Defense Finance and Accounting Service
provide comments by May 16, 2003, to explain how and when it has reported military
deposit cash payments and service credit as listed in Table 1 of this report. A discussion
of the management comments is in the Independent Auditor’s Report section, and the text
is in the Management Comments section.




                                              ii
Table of Contents
Executive Summary                                                    i

Independent Auditor’s Report
     Overview                                                       1
     Attachment of Agreed-Upon Procedures and Associated Findings   6

Appendixes
     A. Scope and Methodology                                       17
          Management Control Program Review                         17
          Prior Coverage                                            18
     B. Report Distribution                                         20

Management Comments
     Defense Finance and Accounting Service                         23
                          Independent Auditor’s Report
                                       Overview
We have performed the employee payroll and withholding data procedures agreed upon
by the Inspector General, the Chief Financial Officer, and the Associate Director for
Retirement and Insurance, Office of Personnel Management (OPM). The sufficiency of
these procedures is solely the responsibility of the three officials agreeing to them.
Therefore, we make no representation regarding the sufficiency of the procedures
described in the attachment. For FY 2002, the OMB guidance added an additional
requirement to obtain management comments concerning this audit, thus requiring a
report rather than a memorandum as in past years. We provided a draft report to OPM
and their contactor, KPMG, in November 2002, which satisfied their initial requirement
to test the reliability on the DoD transfer of payments. We will provide this report to
OPM to satisfy the requirement for management comments. We applied the procedures
to the employee withholdings and employer contributions reported on the Report of
Withholdings and Contributions for Health Benefits, Life Insurance, and Retirement for
the payroll periods ended October 20, 2001; January 26, 2002; February 23, 2002; and
March 09, 2002. We also applied the agreed-upon procedures to the Supplemental
Semiannual Headcount Report as of February 23, 2002. We applied these agreed-upon
procedures in accordance with the standards established by the American Institute of
Certified Public Accountants in the Statement of Auditing Standards No. 87,
“General-Use and Restricted–Use Reports.”

Comparison of Amounts Withheld and Remittance to OPM. In general, the Defense
Finance and Accounting Service (DFAS) and supporting DoD organizations could
improve internal controls over the accuracy of the payroll amounts withheld and remitted
to OPM. The amounts determined by performing the agreed-upon procedures differed
from the amounts presented in DFAS reports, and the differences were within the
parameters prescribed in the agreed-upon procedures.

In prior years, DFAS did not maintain a historical permanent record of the data
summarized for transmission to OPM. However, DFAS has begun to record the data
summarized for transmission to OPM in a permanent record called the SF 2812 file. A
system change request drove this requirement to record the data summarized for
transmission to OPM. The system change request referred to as “the data-to-data project”
allows the mechanized transfer of employee data, including history data, between
databases. This mingling of history data will negatively impact the ability of DFAS to
provide accurate, detailed audit trail data to support the summary data reported to OPM.
Once DFAS completes the data-to-data project, the Defense Civilian Pay System will not
be able to provide the detailed data supporting the payroll withholding information
submitted to OPM, and the electronic record referred to as the SF 2812 file will have to
provide this information.
Payroll File Totals. We totaled the payroll files that included about 681,599 employees
within a given pay period, with a total gross payroll of about $5.5 billion for the 4 pay
periods we reviewed. The payroll withholding amounts DFAS reported to OPM
exceeded the footings (that is, totals) of the DFAS database by $0.533 million, for an
overall error rate of 0.159 percent. This is not an improvement from FY 2001, when the
payroll amounts DFAS reported to OPM exceeded our footings of the DFAS database by
$0.018 million, for an overall error rate of 0.008 percent. The differences found this year


                                             1
are greater than last year, but the differences are not material with respect to the DoD
financial statements. However, considering the sensitivity of payroll, the differences,
which range as high as .7887 percent, represent a material internal control weakness in
the preparation and reporting of DoD payroll that should be addressed by management.
DFAS maintains a database that can be retroactively adjusted, and the adjustments may
create discrepancies between reported and adjusted amounts.

Comparison of Payroll System Data to Official Personnel Files. We compared a
sample of 280 employees from 8 payroll data files to documentary support for amounts
paid and withheld as shown in Official Personnel Files (OPFs). This comparison resulted
in 34 differences (percentages apply to the sample of 280 not to the whole population)
between payroll system data and OPFs for:

        •   3 gross pay discrepancies (1.07 percent),
        •   13 life insurance withholding discrepancies (4.64 percent),
        •   5 health insurance withholding discrepancies (1.79 percent),
        •   9 Thrift Savings Plan (TSP) discrepancies (3.21 percent),
        •   3 Federal Employees Retirement System (FERS) withholding discrepancies
            (1.07 percent), and
        •   1 Civil Service Retirement System (CSRS) withholding discrepancy
            (0.36 percent).

Army Official Personnel Files. During our review of 139 Army OPFs, we identified
36 OPFs with potential discrepancies. We provided the Army with the names, social
security numbers, and the nature of the potential discrepancies in each of the 36 files.
The Army later provided us with forms printed from personnel file databases that
explained inconsistencies between OPFs and the Defense Civilian Pay System data for
24 of the OPFs. We accepted personnel documents generated from personnel file
databases that completely explained differences between data in 21 of the OPFs and data
in the Defense Civilian Pay System. However, three of the OPFs still had unresolved
inconsistencies with data in the Defense Civilian Pay System. After our initial review,
we relied on forms printed by the Army for our use. Therefore, we reclassified the
21 OPFs with explained inconsistencies to “adequately supported and correct.” The
Army sample still had 15 discrepancies out of the original OPFs with potential
discrepancies even after considering the additional documentation.

Causes of Discrepancies. Missing TSP-1 forms caused discrepancies in the sample.
Other discrepancies were caused by miscalculations in the life insurance pay base. In
addition, amounts withheld were inconsistent with documented elections for life
insurance, health insurance, and TSP. The other withholding discrepancies were caused
by failure to communicate payroll information, including Health Benefits Election forms,
and delay in processing Life Insurance Election forms. We discuss the causes of the
discrepancies in the attachment to this report.

Calculations Required. The agreed-upon procedures require us to compare the
headcount of the employees using payroll data files with the headcount in the
Supplemental Semiannual Headcount Report. There was less than a 1 percent difference
between our headcounts of employees using payroll data files and the Supplemental
Semiannual Headcount Reports. This was within the 2 percent reporting threshold
allowed in the agreed-upon procedures.



                                            2
Life Insurance. Our recalculations of Option A life insurance from the payroll data files
supported the amounts reported to the OPM. The calculated amount of $1,285,172.98
was almost the same as the $1,283,751.61 reported to OPM. The difference between the
amount calculated and the amount reported to the OPM ($1,421.37) did not exceed the
2 percent reporting threshold. We did not recalculate Option C because the data for
multiple elections were not available.

Our recalculations of health insurance withholdings from the payroll data files supported
the amounts reported to OPM. The amounts we calculated from the payroll data files
only varied from the amounts reported to OPM by percentages between 0 and
2.14 percent in total, including employee withholding and agency contributions for each
payroll file. This was much lower than the agreed-upon procedures reporting threshold
of 5 percent for health insurance variances. However, in payroll file 380900 the
employees’ withholding recalculated from the SF2812A exceeded the amount withheld
by 5.26 percent for the pay period ended February 23, 2002.

Comparison of Total Amounts Transferred. We compared DFAS and OPM
documentation for the total amounts transferred for the payroll periods sampled. We
found that not all the amounts reported by the Defense Civilian Payroll System were the
same as the amounts reported by the OPM Retirement and Insurance Transfer System.
Specifically, the amounts reported for military deposit and service credit did not match in
5 comparisons. The payroll center files with military deposit and service credit not
matching were the 380300 and 380500 payroll files located in Pensacola. Four of the
DFAS 2812s compared exceeded the OPM 2812s by $10,770. In the other comparison,
the OPM 2812 exceeded the DFAS 2812 by $1,943. Because of the mismatches
discovered during the comparisons of OPM and DFAS 2812s, we subsequently obtained
and compared the Form 2812s for payroll files 0300 and 0500 for 11 additional pay
periods between October 6, 2001, and April 20, 2002. This test showed six additional
comparisons that did not match. In total, we found 10 instances between October 6,
2001; and April 6, 2002; in which the DFAS 2812 exceeded the OPM 2812 by a total of
$36,916. The dollar amount is important because the difference is concerned with cash
or checks that could be subject to mishandling.
DFAS was aware of this deficiency in the Defense Civilian Payroll System prior to
September 1, 2000. On September 1, 2000, personnel at the DFAS-Pensacola prepared a
system change request to resolve this deficiency. DFAS completed the system change to
systematically resolve military deposit cash payments in the Defense Civilian Pay System
on December 1, 2002. Completion of the system change request allows the amounts
reported to OPM by the Retirement Insurance Transfer system to be correct. However,
DFAS-Pensacola took 2 years to complete this important system change request.

Management Comments. DFAS concurred and provided additional information.
DFAS commented that it enacted a new procedure to prepare supplemental SF2812s for
any unreported military deposit cash payments and that it has resolved this problem by
implementing a system change in the Defense Civilian Pay System.

Audit Response. The Management Comments are partially responsive. OPM confirmed
that DFAS has prepared supplemental SF2812s. However, the supplemental SF2812s do
not correct the discrepancies for military deposit cash payments that we discussed in our
draft report. We note 10 instances in which the DFAS 2812 exceeded the OPM 2812 by
a total of $36,916. Table 1 summarizes the unreported military deposit cash payments.


                                             3
Table 2 summarizes the supplemental SF 2812s filed by DFAS for payroll data files
97380300 and 97380500 for military deposits during FY 2002. We request that DFAS
provide comments on the final report, to explain how and when it reported military
deposit cash payments and service credit itemized in this report to OPM.



       Table 1. Unreported Military Deposit Cash Payments During FY 2002

              Pay Period                Payroll                     Amount of Deposit
               Ended                     File                         Unreported

       October 6, 2001                 97380500                        $ 3,947
       October 20, 2001                97380500                        10,056
       December 1, 2001                97380500                          7,765
       December 15, 2001               97380500                        10,8781
       December 15, 2001               97380500                            122
       January 26, 2002                97380300                            178
       January 26, 2002                97380500                            456
       March 9, 2002                   97380300                             80
       April 6, 2002                   97380300                            743
       April 6, 2002                   97380500                          2,688

                 Total                                                $36,916
       1
           Service Credit



             Table 2. Supplemental SF 2812s Filed by DFAS During FY 2002
                                For Military Deposits
              Pay Period                Payroll                     Amount of Deposit
               Ended                     File                          Reported

           June 29, 2002               97380300                        $11,615
           June 29, 2002               97380300                         21,220

                 Total                                                 $32,835



We performed the agreed-upon procedures specifically pertaining to payroll. We were
not engaged to, and did not, perform an audit with the objective of expressing an opinion
on the withholdings and contributions for health benefits, life insurance, retirement, and
on the employee headcount of DoD. Therefore, we are not expressing an opinion.
However, we performed additional procedures based on generally accepted government
auditing standards.

This report is intended for use by the Inspector General, the Chief Financial Officer, and
the Associate Director for Retirement and Insurance, OPM. This report is prepared in the


                                             4
format directed by Office of Management and Budget Bulletin No. 01-02,
October 16, 2000, to address the results of the agreed-upon procedures. Accordingly, this
report should not be used by those who have not agreed to the procedures and have not
taken responsibility for the sufficiency of the procedures for their purposes. Appendix A
discusses the scope and methodology used in accomplishing the agreed-upon procedures.

Recommendation
We recommend that the Director, Defense Finance and Accounting Service report
military deposits and service credits listed in Table 1 of this report to the Office of
Personnel Management.




                                              5
                        ATTACHMENT OF
         AGREED-UPON PROCEDURES AND ASSOCIATED FINDINGS

This attachment contains the OPM agreed-upon procedures and the audit actions and
results of accomplishing those procedures.

Procedure.
Obtain the Agency Payroll Office’s March Semiannual Headcount Report submitted to
OPM and a summary of Retirement Insurance Transfer System (RITS) submissions for
the current fiscal year. For retirement, health benefit, and life insurance, select any three
RITS submissions for the current fiscal year, one of which coincides with the March
Semiannual Headcount Report. Obtain payroll information for the periods covered by
the RITS submissions selected.

1. Compare RITS submission data with payroll information by performing the following
procedures:

1.a. Recalculate the mathematical accuracy of the payroll information. For cross-
servicing agencies, if the internal controls are the same for all agencies serviced, it is only
necessary to perform this procedure for one agency.

Auditor Action. DFAS extracted all 11 of the payroll data files from the payroll history
database and sent them to us by compact disc from its Pensacola, Florida, operating
location. We totaled the 44 payroll data files (11 payroll files for 4 pay periods) with
about $5.5 billion in total pay and about 682,000 employees in each payroll period. We
totaled the life insurance withholdings, health insurance withholdings, CSRS
withholdings, and FERS withholdings. The total withholdings calculated by audit from
data provided by DFAS were $50.7 million for life insurance, $139.0 million for health
insurance, $148.7 million for CSRS, and $22.7 million for FERS.

Procedure.
1.b. Recalculate the mathematical accuracy of each RITS submission for the payroll
information selected in step 1.a.
Auditor Action. We recalculated the mathematical accuracy of each RITS submission
for the payroll information for the payroll periods ended October 20, 2001;
January 26, 2002; February 23, 2002; and March 9, 2002. OPM provided copies of the
RITS submissions that we used for recalculation of the mathematical accuracy.

Procedure.
1.c. Compare the employee withholding information shown on the payroll information
obtained in step 1.a. for retirement, health benefits, and life insurance (as adjusted for
reconciling items) to the related amounts shown on the RITS submission for the
corresponding period.

Auditor Action. We compared the employee withholding totals to the related amounts
shown on the RITS submission for retirement, health benefits, and life insurance, as
evidenced by a Form 2812 OPM produced from the RITS database. The payroll data file
totals for life insurance and FERS equaled the related amounts shown on the RITS
submission for the corresponding period. The payroll data file totals for health benefits
and CSRS did not equal the amounts reported to OPM in the RITS. The health benefits


                                              6
amounts reported in the RITS ($129,329,098) exceeded the payroll data file totals for
health benefits ($128,729,887) by $599,211, or 0.4655 percent. The payroll data files for
the CSRS ($137,512,490.90) exceeded the amounts reported in the RITS for CSRS
($137,446,144.42) by $66,346.48, or .0482 percent. The total differences, percentage
differences, and high/low percentage differences are shown in Table 3.



    Table 3. Differences Between Payroll Data Files and RITS Data Submissions

                      Reported
    Type of            to OPM        Total of        Percent
   Withholding        (millions)    Differences     Difference         High/Low Percent

    Life                  $ 46.8              $0       .0000            0.0000/ 0.0000
    Health                129.3       599,211.02       .4655            0.7887/ 0.2948
    CSRS                  137.5        66,346.48       .0482            0.0799/ 0.0045
    FERS                    20.9               0       .0000            0.0000/ 0.0000

DFAS provided us with an electronic extract from its database. Table 3 shows the
differences between the payroll data files and the RITS data submission. The differences
found this year are greater than last year, but the differences are not material with respect
to the DoD financial statements. However, the differences, which range as high as
.7887 percent, represent a significant internal control weakness in the DoD payroll,
considering the sensitivity of payroll. We will be reporting this internal control weakness
to DFAS.

Procedure.
2.a. Randomly select a total of 25 individuals who were on the payroll system for all
three of the RITS submissions selected and meet all the following criteria:

   •   covered by the CSRS or the FERS;
   •   enrolled in the Federal Employees Health Benefits Program;
   •   covered by Basic Life Insurance; and
   •   covered by at least one Federal Employees Group Life Insurance (FEGLI)
       optional coverage (Option A, B, or C).

Auditor Action. We randomly selected 25 individuals from each of eight payroll data
files in the Department of Defense with more than 30,000 employees who were enrolled
in Federal retirement, health benefits, and life insurance programs.




                                              7
Procedure.
2.b. Obtain the following documents, either in electronic or hard copy format, from the
OPF for each individual selected in step 2.a. Hard copies can be originals or certified
copies.

   •   all Notifications of Personnel Actions (SF-50) covering the pay periods in the
       RITS submissions chosen;
   •   the Health Benefit Registration Form (SF-2809) covering the pay periods in the
       RITS submissions chosen (note: a new SF-2809 is needed only if an employee is
       changing health benefit plans; therefore, the form could be many years old.); and
   •   the Life Insurance Election Form (SF-2817) covering the pay periods in the RITS
       submission chosen (note: a new SF-2817 is needed only if an employee is
       changing life insurance coverage; therefore, the form could be many years old).

Auditor Action. We obtained Notifications of Personnel Actions (SF-50), Health
Benefit Registration Forms (SF-2809), and Life Insurance Election Forms (SF-2817)
covering the pay periods in the RITS submission chosen.

Procedure.
2.c. Via the agency personnel office, request a report from Employee Express for any
health benefit transactions in that system for the individuals selected in step 2.a.
Compare date of transaction with date on the certified copy of the SF-2809 requested in
step 2.b. Confirm that the health benefit information to be used in the step 2.g. covers the
pay periods in the RITS submissions chosen.

Auditor Action. We requested copies from the agency personnel office of any
automated health benefits elections (SF-2809) that could explain differences between
OPFs and the Defense Civilian Pay System. The Army provided copies of personnel
documents from the Army Benefits Center, and we directly accessed the Personnel
Automated Records Information System for Air Force personnel documents.

Procedure.
2.d. Compare the base salary used for payroll purposes and upon which withholdings and
contributions generally are based with the base salary reflected on the employees’
SF-50s. Report any differences.
Auditor Action. We compared the base salary used for payroll purposes with the base
salaries reflected on the employees’ SF-50s. Out of 280 whose files were sampled, the
base salaries used for payroll purposes were not supported by base salaries reflected on
the SF-50s of 3 employees.

Procedure.
2.e. For retirement, compare the plan codes on the employees’ SF-50s to the plan codes
used in the payroll system. Report any differences.

Auditor Action. We compared the plan codes on the employees’ SF-50s to the plan
codes used in the payroll system. We did not note any differences between the retirement
plan codes on the employees’ SF-50s and the retirement plan codes used in the payroll
system.




                                             8
Procedure.
2.f. Calculate the retirement amounts to be withheld and contributed for the plan codes
on the employees’ SF-50s, based upon the official withholding and contribution rates
required by law. Compare to actual amounts withheld and contributed. Report any
differences.

Auditor Action. We calculated the retirement amounts to be withheld and contributed
for the plan codes from the employees’ SF-50s, based upon the official withholding and
contribution rates required. We compared the retirement amounts we calculated to actual
amounts withheld and contributed. We found four differences, one was due to a
calculation error omitting environmental pay in the FERS salary base. The other two
were due to errors in gross pay, which then affected the FERS salary bases. These two
others showed no gross pay in the Defense Civilian Pay System, although the personnel
files indicated that the employees were active and not on leave without pay. The
remaining discrepancy was due to the OPF containing the incorrect SF-50.

Procedure.
2.g. For health benefits, compare the employee withholdings and agency contributions
with the official subscription rates issued by OPM for the plans and options elected by
the employees, as documented by a Health Benefits Registration Form SF-2809 in the
employees’ OPF or Employee Express. Report any differences.

Auditor Action. We obtained the official subscription rates for health benefits issued by
OPM for all plans and options available to Federal employees. We compared the
employee withholdings and agency contributions with the official subscription rates
issued by OPM for the plans and options elected by the employees, as documented by a
Health Benefits Registration Form SF-2809 in the employees’ OPF. We found five
discrepancies between the payroll system database and health withholding data in the
OPFs. For two of the discrepancies, the health plan code on the SF-2809 in the OPF did
not match the health plan code in the Defense Civilian Pay System. The amounts of the
discrepancies were $4.37 per pay period and $3.68 per pay period. Two additional
discrepancies occurred because there was no withholding for health benefits, and the
employee was not paid. The OPF contained no explanation for the lack of pay. The
amounts of these discrepancies were $48.94 and $75.74. The fifth health withholding
discrepancy was due to a completed Health Benefits Registration Form in the OPF but
with no corresponding health code or withholding in the Defense Civilian Pay System.
The SF-50 in the OPF applicable to the pay period audited stated that the employee was
not eligible for health benefits. The amount of the fifth discrepancy was $31.61.
Procedure.
2.h. For life insurance, confirm that Basic Life Insurance was elected by the employees,
as documented by a Life Insurance Election Form (SF-2817), in his/her OPF. Report any
differences.

Auditor Action. We reviewed evidence for life insurance election by reviewing Life
Insurance Election Forms (SF-2809) and SF-50s. All of the OPFs had the required Life
Insurance Election Forms. However, if a civilian employee in the Department of Defense
does not waive life insurance or elect a life insurance option, they are automatically
treated as electing Basic Life Insurance coverage. This treatment is consistent with the
U.S. Office of Personnel Management FEGLI Handbook as shown on the OPM website.


                                            9
The Handbook states that, “As a Federal employee, you automatically have Basic
insurance (unless you are in a category of employees specifically excluded by law or
regulation), unless you waive it on the Life Insurance Election form (SF 2817).”

Procedure.
2.i. Calculate the withholding and contribution amounts for Basic Life Insurance using
the following:

For employee withholdings: Round the employee’s annual base salary to the nearest
thousand dollars and add $2,000. Divide this total by 1,000 and multiply by $0.155 (for
Agency Payroll Offices [APOs] with biweekly pay periods) or $0.3358 (for APOs with
monthly pay periods).

For agency contributions: Divide the employee withholdings calculated above by two.

Compare to actual amounts withheld and contributed. Report any differences.

Auditor Action. We calculated the withholding and contribution amounts for Basic Life
Insurance by rounding the employees’ annual base salaries to the nearest thousand dollars
and adding $2,000. For Federal Wage System employees, we added environmental
differential to the base salaries in determining wages eligible for life insurance. Two of
the sample OPFs that had elected Basic Life Insurance had calculation errors in Basic
Life Insurance. One of these was due to not including environmental differential in
wages eligible for life insurance. The amounts in error were $.62 and $.62.

Procedure.
2.j. Also, for life insurance, compare optional coverage elected, as documented by an
SF-2817 in the employees’ OPF, with optional coverage documented in the payroll
system. Report any differences.

Auditor Action. We obtained SF-2817 documents directly from employees’ OPFs and
electronic personnel data files. We obtained life insurance optional coverage data from
the Defense Civilian Pay System. We compared optional life insurance coverage elected
as documented on the SF-2817s with optional life insurance coverage as recorded in the
Defense Civilian Pay System. We identified three instances in which employees with
optional life insurance coverage had incorrect optional coverage recorded in the Defense
Civilian Payroll System. The amounts in error were $20.50, $7.96, and $5.28. In some
cases, the election was recorded incorrectly, and in other cases, it appears that the
election was not communicated to DFAS.

Procedure.
2.k. Calculate the withholding amounts for optional life insurance using the following:

   •   For Option A: Determine the employee’s age group using the age groups
       provided for Option A in the FEGLI Program Booklet. The withholding amount
       is the rate listed in the FEGLI Program Booklet for that age group. Compare to
       amount withheld. Report any differences.

   •   For Option B: Inspect the SF-2817 to determine the number of multiples chosen
       for Option B. Determine the employee’s age group using the age groups provided
       for Option B in the FEGLI Program Booklet. Round the employee’s annual rate


                                           10
        of basic pay up to the next 1,000, divide by 1,000, and multiply by the rate for the
        age group. Multiply this amount by the number of multiples chosen. Compare to
        amount withheld. Report any differences.

    •   For Option C: Inspect the SF-2817 to determine the number of multiples chosen
        for Option C. Determine the employee’s age group using the age groups provided
        for Option C in the FEGLI Program Booklet. Multiply the rate for the age group
        by the number of multiples chosen. Compare to the amount withheld. Report any
        differences.

Auditor Action. We calculated the amounts for optional life insurance. In addition to
the errors noted under 2.h., 2.i., 2.j., and 2.k., we identified three optional life insurance
errors. Specifically, these errors were for $4.34, $1.40, and $.46. The errors for $1.40
and $.46 were due to including swing shift pay in the life insurable pay. Two other life
insurance errors were due to the official personnel files not being up to date, and three
other life insurance errors were due to life insurance calculation errors. In total, we
identified 13 life insurance errors in all categories.

Procedure.
3. Randomly select a total of 10 employees who have no health benefits withholdings
from the payroll information corresponding to the three RITS submissions selected for
testing.

Request SF-2809s covering the pay periods in the RITS submissions chosen, either in
electronic or hard copy format, from the selected employees’ OPFs. Hard copies can be
originals or certified copies. Via the agency personnel office, request a report from
Employee Express for any health benefits transactions in that system for the individuals
selected. Inspect the documentation to determine that health benefit coverage was not
elected. This can be determined in the following ways:

    •   absence of an SF-2809 in the OPF and no election of coverage made through
        Employee Express;
    •   an SF-2809 in the OPF with Section E checked (indicating cancellation of
        coverage) and no later election of coverage through Employee Express; or
    •   cancellation of coverage through Employee Express and no later election of
        coverage with an SF-2809.
Report any exceptions.

Auditor Action. We randomly selected 10 employees per payroll data file who had no
health benefits withholdings from the payroll information corresponding to the RITS
submissions selected for testing. We reviewed the OPFs and electronic personnel
databases for SF-2809s. We inspected the documentation to determine if health benefit
coverage was elected. Except for one instance, we found no indication of election of
coverage either in OPFs or in electronic files for employees who had no health benefit
withholding. In one instance, discussed under 2.g., a file had an SF-2809 with health
coverage elected, but the SF-50 showed that the employee was not eligible for health
benefits. The OPF did not have a new SF-50 showing eligibility until well after the date
of our review. No deductions were made for health benefits in the Defense Civilian Pay
System for this employee during the periods we reviewed. We treated this as an error
because the OPF and the Defense Civilian Pay System were inconsistent. In addition, the


                                               11
OPF was internally inconsistent because the SF-50 showed that the employee was not
eligible for health benefits, but the SF-2809 in the OPF reflected an election by the
employee for health coverage.

Procedure.
4. Randomly select a total of 10 employees who have no life insurance withholdings
from the payroll information corresponding to the three RITS submissions selected for
testing. Request the SF-2817s covering the pay periods in the RITS submissions chosen,
either in electronic or hard copy format, from the selected employees’ OPFs. Hard copies
can be originals or certified copies. Inspect the SF-2817 to determine that the employee
waived or canceled Basic Life Insurance coverage. Report any exceptions.

Auditor Action. We randomly selected 10 employees per payroll data file who had no
life insurance withholdings according to the Defense Civilian Pay System corresponding
to the three RITS submissions selected for testing. We requested, obtained, and reviewed
the SF-2817s covering the pay periods in the RITS submissions chosen. We inspected
the SF-2817s in all instances when the coverage was waived. No exceptions were noted.

Procedure.
5. Recalculate the headcount reflected on the Semiannual Headcount Report selected for
testing above, as follows.

5.a. Obtain existing payroll information supporting the selected Supplemental
Semiannual Headcount Report selected for testing above, as follows:

   •   Benefit category (see Semiannual Headcount Report),
   •   Dollar amount of withholdings and contributions,
   •   Number enrolled (deductions made/no deductions),
   •   Central personnel data file code, and
   •   Aggregate base salary.

5.b. Recalculate the Headcount reflected on the Semiannual Headcount Report. If an
electronic file is not available, a suggested method of recalculating the headcount is as
follows: (1) estimate the number of employees per payroll register page by counting the
employees listed on several pages, (2) count the number of pages in the payroll register,
and (3) multiply the number of employees per page by the number of pages or count
(using a computer audit routine) the number of employees on the payroll data file for the
period.
5.c. Compare the results of payroll information from step 5.a. with the calculated
headcount from step 5.b. to information shown on the Semiannual Headcount Report.

5.d. Report any differences (e.g., gross rather than net) greater than 2 percent between
the headcount reporting on the agency’s Semiannual Headcount Report and payroll
information from step 5.a. and the calculated headcount from step 5.b.

Auditor Action. We obtained the DFAS Supplemental Semiannual Headcount Reports
(see Table 4) for the pay periods ended February 23, 2002, for Payroll Offices 200, 300,
400, and 800 and March 9, 2002, for Payroll Offices 100, 500, 600, and 900 and
compared those counts to the payroll data files from DFAS-Pensacola for the same
period.


                                            12
                   Table 4. Comparison of Employee Headcounts

                                        Employee
                                         Count             Employee
     Payroll           Report          DFAS Payroll        Headcount
    Data File           Date            Data Files          Report           Difference

   97380100          03/09/2002            104,470           104,470             0
   97380200          02/23/2002             64,788            64,788             0
   97380300          02/23/2002             35,334            35,334             0
   97380400          02/23/2002             50,565            50,565             0
   97380500          03/09/2002            185,709           185,710             1
   97380600          03/09/2002             81,592            81,592             0
   97380800          02/23/2002             65,169            65,169             0
   97380900          03/09/2002             30,996            30,996             0
   Totals                                  618,623           618,624             1


The counts in the payroll data files differed from the headcount reports by one employee,
which is under the headcount reporting threshold of 2 percent.

Procedure.
6.     Calculate employer and employee contributions for retirement, health benefits, and
life insurance.

6.a. Calculate retirement withholdings and contributions for the four pay periods
selected.

6.a.i. Multiply the CSRS and FERS payroll base by the withholding and employer
contribution rates required by law.

6.a.ii. Compare the calculated totals with related amounts shown on the RITS
submissions. Report any variances (e.g., gross rather than net) between the calculated
amounts and the amounts reported on the RITS submissions greater than 5 percent of the
amounts on the RITS submission.

Auditor Action. We calculated the total CSRS and FERS retirement employee
withholdings and employer contributions for the pay periods ended: February 23, 2002,
for the four payroll entities 0200, 0300, 0400, and 0800; March 9, 2002, for the four
payroll entities 0100, 0500, 0600, and 0900. Employee withholding rates for CSRS and
FERS were 7.00% and 0.8%, respectively. Employer contribution rates for CSRS and
FERS were 8.51% and 10.7% respectively. The differences between the calculated total
of CSRS and FERS employee retirement withholdings and employer contributions and
the related amounts shown on the RITS submission did not exceed the agreed-upon
threshold of 5 percent for any of the 8 payroll data files. Differences for CSRS and FERS
employee withholdings varied between 0.02 percent to 0.10 percent and 0.00 percent to
0.27 percent respectively, as shown in Table 5 and Table 6.



                                           13
Table 5 shows the comparison of DFAS records of CSRS and FERS employee
withholdings to amounts withheld per RITS, and the percent difference.


   Table 5. Comparison of CSRS and FERS Employee Withholding per DFAS to
                                    RITS

             CSRS           CSRS                        FERS          FERS
          Calculated      Per DFAS                   Calculated    Per DFAS
 Data     Employee        Employee      Percent      Employee       Employee       Percent
 File     Withholding    Withholding   Difference    Withholding   Withholding    Difference
 100        5,630,031     5,633,571     -0.06%          794,035       794,048       0.00%
 200        3,575,578     3,578,562     -0.08%          455,071       455,118      -0.01%
 300        1,615,756     1,616,060     -0.02%          166,325       166,779      -0.27%
 400        2,537,370     2,538,807     -0.06%          320,943       320,990      -0.01%
 500       10,442,885    10,448,938     -0.06%        1,568,136     1,568,168       0.00%
 600        4,944,699     4,945,740     -0.02%          542,826       543,973      -0.21%
 800        4,170,341     4,169,019      0.03%          472,039       472,020       0.00%
 900        1,409,973     1,411,395     -0.10%          187,738       187,741       0.00%
Totals     34,326,633    34,342,092     -0.05%        4,507,113     4,508,837      -0.04%

Table 6 shows the comparison of DFAS records of CSRS and FERS employer
contributions to amounts withheld per RITS, and the percent difference.


  Table 6. Comparison of CSRS and FERS Employer Contribution per DFAS to
                                   RITS

            CSRS           CSRS                        FERS           FERS
          Calculated     Per DFAS                    Calculated     Per DFAS
 Data     Employer       Employer       Percent      Employer       Employer       Percent
 File    Contribution   Contribution   Difference   Contribution   Contribution   Difference
 100       7,217,950     7,216,520       0.02%       10,620,216     10,620,215      0.00%
 200       4,579,699     4,580,406      -0.02%        6,086,580      6,086,407      0.00%
 300       2,088,882     2,088,699       0.01%        2,224,595      2,226,785     -0.10%
 400       3,250,936     3,252,122      -0.04%        4,292,613      4,292,603      0.00%
 500     13,392,089     13,396,830      -0.04%       20,973,813     20,975,360     -0.01%
 600       6,292,728     6,293,166      -0.01%        7,260,295      7,260,239      0.00%
 800       5,368,592     5,366,122       0.05%        6,313,527      6,313,526      0.00%
 900       1,798,580     1,799,585      -0.06%        2,510,999      2,511,002      0.00%
Totals   43,989,456     43,993,450      -0.01%       60,282,638     60,286,137     -0.01%


Procedure.
6.b. Calculate employee withholdings and employer contributions for health benefits for
the four pay periods selected.

Auditor Action. We obtained the number of employees enrolled in each health
insurance plan for each payroll data file from data provided by DFAS as RITS
submissions. We obtained the official subscription rates for health benefits issued by
OPM for all plans and options available to Federal employees from the OPM website.


                                            14
We extended and added the totals and compared the results with the health insurance
withholding and contribution amounts shown on the OPM Collection and Deposit System
Standard Form 2812. All but one Payroll Office was below the 5 percent reporting
threshold. Payroll Office 900 had a variance of 5.26 percent for employee contributions
for the February 23, 2002, pay period. We would also like to note that for the pay period
ended January 26, 2002, the overall difference for employee contributions was
4.84 percent. These differences are the highest that we have seen since the inception of
the agreed-upon procedures.

Management Comments. DFAS nonconcurred and provided additional information.
DFAS stated that the discrepancy described for database 380900 is significantly
overstated. DFAS stated that the difference in the SF 2812 amount and the extract report
is only a 0.0037 percent difference. DFAS also commented that it did not provide
employer contribution amounts on the extract report because they were not included in
the request from the Inspector General of the Department of Defense (IG DoD). DFAS
stated that the auditors attempted to extrapolate the employer contribution amounts by
using the number of employees in each health code for the pay period examined. DFAS
asserted that this method is not acceptable for determining the proper health benefits
amount because it would not include any retroactive actions. DFAS also commented that
this method would not include proper amounts for part-time employees, they are
calculated based on scheduled hours, as well as OMB rates.

Audit Response. The management comments are responsive. We used the methods
recommended in the agreed-upon procedures to recalculate health benefits. Step 6.b.i
requires multiplying the number of employees enrolled in each health benefits plan and
plan option by the employee withholdings and employer contributions for the plan and
option. Step 6.b.ii requires summing the totals in Step 6.b.i. and comparing the result
with the health benefit withholding and contribution amounts shown on the SF 2812.
Step 6.b.ii. requires us to report any variances (e.g., gross rather than net) between the
calculation amounts and the amounts reported on the SF 2812s greater than 5 percent.
We are reluctant to request any additional data from DFAS due to our prior experience of
extracting accurate and timely information from its database. DFAS does not have an
accounting system to record payroll data, but instead relies on the Defense Civilian Pay
System database that takes sometimes up to 8 weeks to get the data. If the recalculations
exceed the threshold for reporting a variance, we will request retroactive actions and data
on part-time employees for further explanation of the difference.

Procedure.
6.c. Calculate the Basic Life Insurance employee withholdings and employer
contributions for the four pay periods selected.

Auditor Action. We obtained the number of employees enrolled in each life insurance
plan for each payroll data file from data provided by DFAS as RITS submissions. We
obtained the cost of employee withholdings and employer premiums for life insurance
from the Access database provided by DFAS. We extended and added the totals and
compared the result with the life insurance withholding and contribution amounts shown
on the OPM Collection and Deposit System Standard Form 2812. All Payroll Offices are
below the 5 percent reporting threshold.




                                            15
Procedure.
6.d. Calculate the Option A and Option C Life Insurance coverage withholdings for the
four pay periods selected by using detail payroll reports used to reconcile the RITS
reports in Step 1.

Auditor Action. We obtained the number of participating employees from DFAS for
each payroll data file. We totaled the individual withholding for Option A and Option C
for each payroll data file and each date. For the pay period ended October 20, 2001, the
overall difference for Option A was 0.13 percent. For the pay period ended January 26,
2002, the overall difference for Option A was 0.10 percent. For the pay period ended
February 23, 2002, the overall difference for Option A was 0.13 percent. For the pay
period ended March 9, 2002, the overall difference for Option A was 0.09 percent. The
differences between the amounts reported to OPM by DFAS and the amounts we totaled
were significantly less than the reporting threshold of 2 percent in the agreed-upon
procedures for Option A.

For the pay period ended October 20, 2001, the overall difference for Option C was
0.17 percent. For the pay period ended January 26, 2002, the overall difference for
Option C was 0.27 percent. For the pay period ended February 23, 2002, the overall
difference for Option C was 0.18 percent. For the pay period ended March 9, 2002, the
overall difference for Option C was 0.12 percent. The differences between the amounts
reported to OPM by DFAS and the amounts we footed were significantly less than the
reporting threshold of 2 percent in the agreed-upon procedures for Option C.




                                           16
Appendix A. Scope and Methodology
    We reviewed a sample of the data and documentation supporting the $2.3 billion
    in payroll withholding reported each year by DFAS to OPM for DoD civilian
    personnel. The total annual payroll for about 675,000 DoD civilian employees is
    $25.2 billion. We selected for review the payroll files and supporting
    documentation for the payroll periods that ended October 20, 2001;
    January 26, 2002; February 23, 2002; and March 9, 2002. The DFAS payroll
    history database did not support the amount of DoD payroll withholding reported
    to OPM since the detailed data provided to us for the audit, when added together,
    did not agree with amounts reported to OPM. We made recommendations
    addressing this deficiency for FY 2000 in Inspector General Department of
    Defense Report No. D-2001-109, issued April 27, 2001. We had previously made
    recommendations addressing this deficiency for FY 1999 in IG DoD Report
    No. D-2000-156, issued June 29, 2000. DFAS had offered an alternative
    procedure, referred to as “data warehousing,” during mediation to maintain data
    for 6 years when fully implemented. IG DoD considers this an acceptable
    alternative because it supports U.S. Treasury record retention requirements.

    We reviewed data and documentation supporting gross pay and payroll
    withholdings that DFAS reported to OPM for the four pay periods ended
    October 20, 2001; January 26, 2002; February 23, 2002; and March 9, 2002. We
    also reviewed management controls over the reporting process. We compared the
    payroll data files with employee personnel forms for 280 randomly selected
    employees for gross pay, retirement, health insurance, and life insurance.

    We performed the agreed-upon procedures required by OMB, including
    verification of the payroll data file totals and recalculations of insurance and
    retirement withholdings.

    We did not perform an audit but performed additional procedures based on
    auditing standards from February 2002 through August 2002. .

    Use of Computer-Processed Data. We did not evaluate the general and
    application controls of the Defense Civilian Pay System that processes payroll
    data, although we did rely on data produced by that system to conduct the audit.
    We did not evaluate the controls because we determined data reliability by
    totaling the data provided to us from the system and comparing the totals to
    summary documents previously prepared from data in the system. Not evaluating
    the controls did not affect the results of the audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”


                                          17
    August 28, 1996, require DoD managers to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of DoD personnel offices’ management controls over official personnel
    files. Specifically, we reviewed DoD personnel offices’ management controls
    over accuracy of personnel elections for payroll withholding, transmission of
    payroll withholding data to DFAS, and retention of personnel payroll withholding
    election data in the official civilian personnel files. We reviewed the annual
    statements of assurance by the Military Departments and Defense agencies to
    determine whether they disclosed the inconsistency between official personnel
    files and Defense Civilian Pay System payroll withholding data.

    Adequacy of Management Controls. We identified a management control
    weakness for DoD personnel offices as defined by DoD Instruction 5010.40.
    DoD personnel offices’ management controls for accuracy of personnel payroll
    withholding elections, timely transmission of personnel payroll withholding data
    to DFAS, and retention of personnel payroll withholding elections in official
    personnel files were not adequate to ensure that civilian personnel were paid and
    withholdings made properly, that civilian personnel payroll withholding data were
    transmitted in a timely manner, and that documents and data supporting payroll
    withholding were retained in the official personnel files. We previously reported
    this management control weakness in Inspector General Report No. D-2002-070,
    issued March 25, 2002. Recommendations 1.a., 1.b., and 2. in that report have
    been implemented and will improve DoD personnel office payroll withholding
    procedures. A copy of that report was provided to the senior official responsible
    for management controls of the personnel offices of the Military Departments and
    Defense agencies.

    Adequacy of Management’s Self-Evaluation. Self-evaluation by the Military
    Departments and Defense agencies did not identify the weakness because
    management did not identify the area as an assessable unit.

Prior Coverage
    The IG DoD and the Air Force Audit Agency have conducted multiple reviews
    related to civilian payroll information, controls over the payroll process, and
    payroll expenses. Unrestricted IG DoD reports can be accessed over the Internet
    at www.dodig.osd.mil/audit/reports. Unrestricted Air Force Audit Agency reports
    can be accessed over the Internet at www.afaa.hq.af.mil.




                                       18
Inspector General of the Department of Defense

IG DoD Report No. D-2002-070, “DoD Payroll Withholding Data for FY 2000,”
March 25, 2002

IG DoD Report No. D-2001-109, “DoD Payroll Withholding Data for FY 2000,”
April 27, 2001

IG DoD Report No. D-2000-156, “DoD Payroll Withholding Data for FY 1999,”
June 29, 2000




                                19
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Manpower and Reserve Affairs)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Manpower, Reserve Affairs, Installations, and
  Environment)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Commissary Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, Defense Information Systems Agency
Director, Civilian Personnel Management Services



Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Office of Personnel Management




                                           20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          21
Defense Finance and Accounting Service
Comments
                                         Final Report
                                          Reference




                                         Pages 3-4




                                         Page 15




                      23
Final Report
 Reference




               24
Team Members
The Defense Financial Auditing Service, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard Bird
David F. Vincent
Thomas J. Winter
Joseph A. Powell
Jonathan M. Rabben
Joseph Bilock
Mark Heim
Angel Beltran
Ann Thompson
